Proskauer Rose LLP Eleven Times Square New York, NY 10036-8299

April 13, 2021
By eFile
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Martin J. Bienenstock
Member of the Firm
d +1.212.969.4530
f 212.969.2900
mbienenstock@proskauer.com
www.proskauer.com

Re: Elliott et al. v. Fin. Oversight & Mgmt. Bd. for P.R. et al., No. 20-1400
Dear Mr. Harris:
On behalf of Respondent the Financial Oversight and Management Board for Puerto Rico
(the “Board”), as representative of the Commonwealth of Puerto Rico and the Puerto Rico Sales
Tax Financing Corporation, I am writing pursuant to Supreme Court Rule 30.4 to request a 30day extension of time to file a response to the petition for a writ of certiorari in the abovecaptioned matter. The petition was docketed on April 6, 2021. Accordingly, the response is
currently due on May 6. The requested 30-day extension would extend the due date to June 7.
Counsel for Petitioners has stated that he does not oppose the requested extension.
The Board was established by Congress to oversee the restructuring of Puerto Rico’s
massive public debt—the largest restructuring of public debt in American history. See 48 U.S.C.
§ 2121(b). At present, the Board is litigating numerous adversary proceedings and appeals
within the bankruptcy-like cases it has filed on behalf of the Commonwealth and its municipal
entities. In light of the great number of matters the Board is handling, the Board respectfully
submits that the requested extension is necessary to allow it to respond properly to the petition.

Sincerely,

Martin J. Bienenstock

cc: Rafael A. González Valiente, Counsel of Record for Petitioners

Beijing | Boca Raton | Boston | Chicago | Hong Kong | London | Los Angeles | New Orleans | New York | Newark | Paris | São Paulo | Washington, DC

